                                                                                                               Denali Commission
                                                                                                             510 L Street, Suite 410
                                                                                                             Anchorage, AK 99501

                                                                                                                   907.271.1414 tel
                                                                                                                  907.271.1415 fax
                                                                                                              888.480.4321 toll free
                                                                                                                    www.denali.gov


                                                                                           INSPECTOR GENERAL

                                                      April 11, 2013

                                                                                                    FINAL REPORT
                                                                                                        ────
                                                                                                FOR PUBLIC RELEASE




                                        INSPECTION REPORT RE GRANT # 1312

This inspection1 by the Office of Inspector General (OIG) concerns grant # 1312 that the Denali
Commission (Denali) awarded to its grantee, the State of Alaska (State). Complainant “X”
asserts that it was denied a subaward in violation of law.

The program at issue is a state program established by state statute. 2 Denali’s role is limited to
(1) partial funding via its grant to the State and (2) assignment of a Denali employee to a state
advisory panel whose members, per state statute,3 are appointed by the state’s governor. The
purpose of OIG’s inspection is thus limited to determining whether Denali’s participation on this
panel complied with applicable laws.

A state statute identifies particular sources from which the advisory panel’s members are to be
appointed.4 Denali is one of these sending organizations.5 Additional technical qualifications are
prescribed for the panel members: “Each member of the committee shall have a degree in
science or engineering, or equivalent professional experience, and at least two years of
experience working in the state.”6

OIG has confirmed through the State’s online public database that the panel member from Denali
has active licensing as a Professional Engineer. This panel member also has well in excess of
two years of work experience in the construction of public facilities in rural Alaska. In short, the
member sent from Denali meets the statutory requirements to sit on the panel.


1
  OIG responded to this complaint under the CIGIE standards for inspections through the following methodology: (1) a three-
hour interview of the complainant conducted in Anchorage, Alaska; (2) an interview of the panel’s chair conducted in Homer,
Alaska; (3) an interview of the Denali employee who sat on the panel; (4) a review of documents provided by the complainant;
(5) a review of Denali records for its grant # 1312; (6) a review of state statutes and regulations applicable to the program.
2
    See AS 42.45.375, which establishes the “Emerging energy technology fund.”
3
    See AS 42.45.375(f).
4
    See AS 42.45.375(f).
5
    See AS 42.45.375(f)(4).
6
    See AS 42.45.375(f).
Denali OIG inspection                                          2                                     April 11, 2013
of grant #1312



The state’s panel scores grant applications using the criteria specified in state regulations.7 The
panel then forwards its results as a recommendation to the State’s energy agency.8

OIG found no evidence that any federal laws were violated by the service of Denali’s employee
on the State’s scoring panel. More specifically, we found no evidence that the service of Denali’s
employee was inconsistent with the federal regulations that restrict “covered relationships,”9
“prohibited sources,”10 and “prohibited financial interests.”11

The state energy agency has issued regulations that prescribe appeal procedures for aggrieved
applicants, proposers, and bidders.12 In fact, the Alaska Supreme Court has previously confirmed
the legitimacy of these procedures in a protest concerning the use of Denali funding by this same
state agency:

            The hearing officer . . . —after a careful review of the law and evidence bearing
            on the specific claims [the vendor] advanced to support its challenge—issued a
            thorough, well-supported, and clearly explained decision rejecting [the vendor’s]
            challenge. The Energy Authority has adopted the recommended decision and, on
            appeal, [the vendor] has failed to make a persuasive showing of any significant
            legal or factual error in the agency's decision. Accordingly, we affirm the hearing
            officer's recommended decision, set out its full text in Appendix A, and rely on it
            to explain our reasons for rejecting the points [the vendor] raises here renewing
            its arguments before the agency.13

And a further decision of the supreme court has addressed this state agency’s protection for a
vendor’s trade secrets during Denali-funded projects.14

X complains that its application was not scored properly under the program’s criteria and in
relation to some of the successful applicants. Protests over application scoring are the type of
complaint that the State’s appeal system has been established to decide, and OIG does not
attempt to override or displace that process. The Alaska Court System (not OIG) has the




7
    See 3 AAC 107.720, 3 AAC 107.745, 3 AAC 107.755, 3 AAC 107.760.
8
    See 3 AAC 107.720, 3 AAC 107.745, 3 AAC 107.755.
.
9
    See 5 CFR 2635.502.
10
     See 5 CFR 2635.202.
11
     See 5 CFR 2635.403.
12
     See 3 AAC 107.765, 3 AAC 107.795, 3 AAC 108.915, 3 AAC 108.920.
13
  See Powercorp Alaska v. State, Alaska Industrial Development & Export Authority, Alaska Energy Authority, 171 P.3d 159
(Alaska 2007).
14
     See Powercorp Alaska v. Alaska Energy Authority, 290 P.3d 1173 (Alaska 2012).
Denali OIG inspection                                          3                                           April 11, 2013
of grant #1312



jurisdiction to authoritatively decide such matters after the state agency’s own appeal procedures
have been exhausted.15

Those disappointed with the State’s grant program can also express concerns during the “public
comments” portion of meetings of the board of directors of the state energy agency.16



                                                                     MIKE MARSH, CPA, MPA, CFE, ESQ.

                                                                              INSPECTOR GENERAL
                                                                              DENALI COMMISSION




15
  See AS 22.10.020(d); Alaska Rule of Appellate Procedure 601; Alaska Court System Form AP-101, Notice of Appeal (from
Administrative Agency to Superior Court).
16
     See, for example, the board meeting minutes for August 14, 2012 at www.akenergyauthority.org/boardmin.html.
